<html>
<title> - REVIEW OF FAA'S CERTIFICATION PROCESS: ENSURING AN EFFICIENT, EFFECTIVE, AND SAFE PROCESS</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]






                 REVIEW OF FAA'S CERTIFICATION PROCESS:
                 ENSURING AN EFFICIENT, EFFECTIVE, AND
                              SAFE PROCESS

=======================================================================

                                (113-40)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                                AVIATION

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 30, 2013

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





         Available online at: http://www.gpo.gov/fdsys/browse/
        committee.action?chamber=house&committee=transportation

                               __________

                         U.S. GOVERNMENT PRINTING OFFICE 

85-301 PDF                     WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001





             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                  BILL SHUSTER, Pennsylvania, Chairman
DON YOUNG, Alaska                    NICK J. RAHALL, II, West Virginia
THOMAS E. PETRI, Wisconsin           PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         ELEANOR HOLMES NORTON, District of 
JOHN J. DUNCAN, Jr., Tennessee,          Columbia
  Vice Chair                         JERROLD NADLER, New York
JOHN L. MICA, Florida                CORRINE BROWN, Florida
FRANK A. LoBIONDO, New Jersey        EDDIE BERNICE JOHNSON, Texas
GARY G. MILLER, California           ELIJAH E. CUMMINGS, Maryland
SAM GRAVES, Missouri                 RICK LARSEN, Washington
SHELLEY MOORE CAPITO, West Virginia  MICHAEL E. CAPUANO, Massachusetts
CANDICE S. MILLER, Michigan          TIMOTHY H. BISHOP, New York
DUNCAN HUNTER, California            MICHAEL H. MICHAUD, Maine
ERIC A. ``RICK'' CRAWFORD, Arkansas  GRACE F. NAPOLITANO, California
LOU BARLETTA, Pennsylvania           DANIEL LIPINSKI, Illinois
BLAKE FARENTHOLD, Texas              TIMOTHY J. WALZ, Minnesota
LARRY BUCSHON, Indiana               STEVE COHEN, Tennessee
BOB GIBBS, Ohio                      ALBIO SIRES, New Jersey
PATRICK MEEHAN, Pennsylvania         DONNA F. EDWARDS, Maryland
RICHARD L. HANNA, New York           JOHN GARAMENDI, California
DANIEL WEBSTER, Florida              ANDRE CARSON, Indiana
STEVE SOUTHERLAND, II, Florida       JANICE HAHN, California
JEFF DENHAM, California              RICHARD M. NOLAN, Minnesota
REID J. RIBBLE, Wisconsin            ANN KIRKPATRICK, Arizona
THOMAS MASSIE, Kentucky              DINA TITUS, Nevada
STEVE DAINES, Montana                SEAN PATRICK MALONEY, New York
TOM RICE, South Carolina             ELIZABETH H. ESTY, Connecticut
MARKWAYNE MULLIN, Oklahoma           LOIS FRANKEL, Florida
ROGER WILLIAMS, Texas                CHERI BUSTOS, Illinois
TREY RADEL, Florida
MARK MEADOWS, North Carolina
SCOTT PERRY, Pennsylvania
RODNEY DAVIS, Illinois
MARK SANFORD, South Carolina
                                ------                                

                        Subcommittee on Aviation

                FRANK A. LoBIONDO, New Jersey, Chairman
THOMAS E. PETRI, Wisconsin           RICK LARSEN, Washington
HOWARD COBLE, North Carolina         PETER A. DeFAZIO, Oregon
JOHN J. DUNCAN, Jr., Tennessee       EDDIE BERNICE JOHNSON, Texas
SAM GRAVES, Missouri                 MICHAEL E. CAPUANO, Massachusetts
BLAKE FARENTHOLD, Texas              DANIEL LIPINSKI, Illinois
LARRY BUCSHON, Indiana               STEVE COHEN, Tennessee
PATRICK MEEHAN, Pennsylvania         ANDRE CARSON, Indiana
DANIEL WEBSTER, Florida              RICHARD M. NOLAN, Minnesota
JEFF DENHAM, California              DINA TITUS, Nevada
REID J. RIBBLE, Wisconsin            SEAN PATRICK MALONEY, New York
THOMAS MASSIE, Kentucky              CHERI BUSTOS, Illinois
STEVE DAINES, Montana                CORRINE BROWN, Florida
ROGER WILLIAMS, Texas                ELIZABETH H. ESTY, Connecticut
TREY RADEL, Florida                  NICK J. RAHALL, II, West Virginia
MARK MEADOWS, North Carolina           (Ex Officio)
RODNEY DAVIS, Illinois, Vice Chair
BILL SHUSTER, Pennsylvania (Ex 
    Officio)














                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    iv

                               TESTIMONY
                                Panel 1

Dorenda Baker, Director of the Aircraft Certification Service, 
  Federal Aviation Administration, acccompanied by John S. 
  Duncan, Director of the Flight Standards Service, Federal 
  Aviation Administration........................................     3
Gerald L. Dillingham, Ph.D., Director, Physical Infrastructure 
  Issues, Government Accountability Office.......................     3
Jeffrey B. Guzzetti, Assistant Inspector General for Aviation 
  Audits, U.S. Department of Transportation......................     3

                                Panel 2

Peter J. Bunce, President and CEO, General Aviation Manufacturers 
  Association....................................................    19
Thomas L. Hendricks, President and CEO, National Air 
  Transportation Association.....................................    19
Michael Perrone, President, Professional Aviation Safety 
  Specialists, AFL-CIO...........................................    19
Ali Bahrami, Vice President-Civil Aviation, Aerospace Industries 
  Association of America.........................................    19

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Dorenda Baker and John S. Duncan, joint statement................    36
Gerald L. Dillingham, Ph.D.......................................    46
Jeffrey B. Guzzetti..............................................    63
Peter J. Bunce...................................................    72
Thomas L. Hendricks..............................................    80
Michael Perrone..................................................    85
Ali Bahrami......................................................    95

                       SUBMISSION FOR THE RECORD

Thomas L. Hendricks, President and CEO, National Air 
  Transportation Association, response to request for information 
  from Hon. Mark Meadows, a Representative in Congress from the 
  State of North Carolina........................................    34

                         ADDITION TO THE RECORD

Eric Byer, Vice President of Communications, Policy, and 
  Planning, Aeronautical Repair Station Association, written 
  statement......................................................   103


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

 
                 REVIEW OF FAA'S CERTIFICATION PROCESS:
                   ENSURING AN EFFICIENT, EFFECTIVE,
                            AND SAFE PROCESS

                              ----------                              


                      WEDNESDAY, OCTOBER 30, 2013

                  House of Representatives,
                          Subcommittee on Aviation,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met pursuant to notice at 10:00 a.m. in 
Room 2167, Rayburn House Office Building, the Hon. Frank A. 
LoBiondo (Chairman of the subcommittee) presiding.
    Mr. LoBiondo. Good morning. The subcommittee will come to 
order. Thank you for being here today.
    Today the subcommittee will hear from the FAA and other 
expert witnesses on the agency certification process. It is the 
shared goal of everyone in this room to find the right balance 
between maintaining the highest level of aviation safety while 
achieving greater efficiencies in the FAA certification 
process. As the aviation industry develops new products and 
other innovations, the FAA must likewise evolve. Examples of 
this creative spirit can be found throughout the industry. Many 
companies I have worked with with the FAA Tech Center in my 
district to develop and test new products that improve safety 
and efficiency of the U.S. aviation system.
    To ensure that the hard work at the Technical Center and 
elsewhere in the industry, it is not needlessly delayed or 
wasted altogether, it is critical that the FAA certification 
processes keep pace. The Aviation Subcommittee often hears 
concerns from companies, operators and other certificate 
holders related to the FAA's certification processes, and 
particularly long wait times, inconsistent regulatory 
interpretations, and redundant or outdated processes have all 
been brought to the subcommittee's attention.
    In response, Congress included two important provisions in 
the FAA Modernization and Reform Act of 2012 to improve the FAA 
certification process. These provisions require the agency to 
develop plans to streamline their certification processes and 
address regional regulatory inconsistencies, all while 
maintaining the highest level of safety. In response, the FAA 
submitted reports to the committee that outlined 
recommendations to improve and streamline certification and 
address inconsistent regulatory interpretations.
    Today we look forward to hearing what progress the FAA has 
made carrying out these provisions and what recommendations 
they will implement to further ensure certification processes 
are effective and efficient. I look forward to hearing from our 
witnesses and thank them for their participation.
    I ask unanimous consent that all Members have 5 legislative 
days to revise and extend their remarks and include extraneous 
material for the record of this hearing. Without further 
objection it is so ordered. I would like now to yield to Mr. 
Larsen.
    Mr. Larsen. Thank you, Chairman LoBiondo, for calling 
today's hearing to review the FAA certification process.
    Mr. Chairman, the ability of U.S. manufacturers to improve 
our aviation system and compete successfully in the global 
marketplace is tied directly to the FAA's timely review of new 
products. The public relies on a skilled and dedicated FAA 
workforce to work with industry and ensure that new products 
and services are safe.
    I certainly see firsthand how important FAA's certification 
services are in my State of Washington where aviation 
manufacturing is a significant economic driver. My State is 
home to over 1,000 firms in the airspace cluster employing more 
than 131,000 people; in the export industry in my State, 
aviation accounts for $27 billion of a total $64.6 billion in 
exports. So to ensure that aviation manufacturing continues to 
play a critical role in our economy, Congress must provide 
adequate resources for FAA certification services.
    Additionally, Congress should encourage FAA to improve the 
streamlining process while maintaining the highest level of 
safety. Therefore, I am pleased that the most recent 
reauthorization directed the FAA to assess its certification 
process and address concerns about regulatory interpretation. 
More specifically, section 312 of the Act requires FAA conduct 
an assessment of the aircraft certification and approval 
process.
    One of the key recommendations that came out of the report 
contained in the FAA certification report is that the agency 
would more effectively use its existing delegation authority. 
This authority is not new, because FAA simply does not have the 
personnel to oversee every aspect of aviation certification, 
though the law allows FAA to delegate certain functions to 
qualified individuals and companies. And today the FAA appoints 
both individual designees and grants approval of organizational 
designation authorizations or ODAs. And, through ODAs, FAA 
delegates responsibility for selecting individuals to perform 
routine certification work to aircraft manufacturers and other 
organizations.
    Further, the report notes that if FAA fully utilizes the 
authority to carry out these certifications, the personnel will 
be free to focus on critical areas that present more risk. So 
in theory this makes sense, and I support the idea of 
streamlining the certification process as long as it can be 
done safely.
    But safety can't take a back seat to efficiency. And the 
GAO reports that upwards of 90 percent of FAA's certification 
activities were performed by designees. Therefore, FAA 
personnel must have tools and the training to properly assess 
risk so that they are involved when needed to be and are 
prepared to step up their involvement and certification 
activity when warranted. And when certain certification 
activities present greater risk or involve new technologies, 
the FAA must possess the technical expertise or readily obtain 
outside expertise so it can work with industry to address 
safety issues.
    And in 2011 the DOT inspector general reported the FAA 
needed to strengthen its risk assessment analysis capability 
with respect to ODA, so the FAA personnel could better identify 
safety-critical certification issues. And so I look forward to 
hearing from the IG about what steps, if any of the FAA, has 
taken to strengthen--the opinion that the FAA has taken to 
strengthen its risk-based targeting program since the 2011 
report.
    And, likewise, earlier this year the GAO raised concerns 
that FAA staff have not been able to keep pace with industry 
changes and thus may struggle to understand the aircraft or 
equipment they are tasked to certificate. So I would like to 
hear from Dr. Dillingham whether he believes this is a major 
concern and what steps the FAA can take or is taking to address 
this concern.
    Now, Mr. Chairman, in 2010 the GAO reported the FAA is 
inconsistent in interpretation of its own certification and 
approval regulations, has resulted in delays and higher costs 
for industry, and this could lead to jurisdiction shopping or 
unfair standards for different manufacturers, depending on 
where they are located. For this reason, section 313 of the FAA 
authorization directed the FAA to be in an advisory panel to 
determine the root causes of inconsistent, regulatory 
interpretation by FAA personnel. This July, the panel issued 
its report to Congress, but the FAA has not yet drafted a plan 
to implement the panel's recommendations.
    Many of the recommendations make sense, centering on 
improving training for FAA personnel and improving 
communication between FAA and industry. For example, the panel 
recommended that the FAA develop a consolidated master database 
for regulatory policy and guidance for commercial aviation. So 
I look forward to hearing the FAA's reaction to this and to 
other panel recommendations.
    With that, Mr. Chairman, thank you for holding a hearing. I 
look forward to hearing from our witnesses.
    Mr. LoBiondo. Thank you very much, Mr. Larsen.
    I would now like to recognize our first witness of the day, 
FAA Director of the Aircraft Certification Service, Ms. Dorenda 
Baker, who is accompanied by Mr. John Duncan, the Director of 
the Flight Standards Service. You are now recognized.
    Thank you.

     TESTIMONY OF DORENDA BAKER, DIRECTOR OF THE AIRCRAFT 
    CERTIFICATION SERVICE, FEDERAL AVIATION ADMINISTRATION, 
ACCOMPANIED BY JOHN S. DUNCAN, DIRECTOR OF THE FLIGHT STANDARDS 
SERVICE, FEDERAL AVIATION ADMINISTRATION; GERALD L. DILLINGHAM, 
  PH.D., DIRECTOR, PHYSICAL INFRASTRUCTURE ISSUES, GOVERNMENT 
   ACCOUNTABILITY OFFICE; AND JEFFREY B. GUZZETTI, ASSISTANT 
   INSPECTOR GENERAL FOR AVIATION AUDITS, U.S. DEPARTMENT OF 
                         TRANSPORTATION

    Ms. Baker. Thank you.
    Chairman LoBiondo, Congressman Larsen, members of the 
subcommittee, thank you for inviting us to appear before you 
today on behalf of the Federal Aviation Administration.
    I am Dorenda Baker, director of the Aircraft Certification 
Service. With me is John Duncan, the director of the Flight 
Standards Service. Today is the first time John and I are 
appearing before the subcommittee and we hope that the 
information we provide will assist you in your oversight 
responsibilities.
    Between the Aircraft Certification Service and the Flight 
Standards Service, we oversee the life cycle of an aircraft, 
from design and production of new aircraft, to maintenance, 
modification and repair of aircraft as they age. We also 
oversee the pilots, flight attendants, mechanics, airlines and 
flight schools who fly and maintain them. Throughout the life 
cycle, our priority is to ensure the continued operational 
safety of the civil aviation fleet.
    As the aviation industry grows in response to the global 
demand, each new aircraft and operator increases the FAA's 
oversight responsibility. While we have been successful at 
using the tools that Congress has given us, such as delegation 
to leverage our resources, it is incumbent upon us to further 
improve our processes to make them as efficient and effective 
as possible and maintain the high standards of safety that the 
public expects.
    Last year Congress passed the FAA Modernization Reform Act 
of 2012. Sections 312 and 313 of the Act require the FAA to 
work with industry representatives to review and improve the 
FAA aircraft certification process, and standardize FAA's 
regulatory interpretations. In response to section 312, the FAA 
collaborated with industry representatives on six 
recommendations to streamline and reengineer the certification 
processes. The FAA concurred with the intent of all of the 
recommendations and developed an implementation plan that 
mapped the recommendations to 14 agency initiatives. Since the 
original release of the implementation plan in January of 2013, 
the FAA has made progress on all of the initiatives.
    To keep ourselves accountable and promote transparency, we 
periodically post the updates on the FAA Web site. Our most 
recent update was posted in July and we plan to post the next 
update this coming January. Some examples of our progress 
include the approval of the Part 23 Rulemaking Project, 
issuance of the revised order on Organization Designation 
Authorization, or ODA, initiation of a 2-year pilot program for 
delegation of noise findings, the kick-off of the Part 21 
Aviation Rulemaking Committee, and a revision to the Aircraft 
Certification Sequencing process.
    In response to section 313, the FAA reviewed and accepted 
an Aviation Rulemaking Committee's six recommendations to 
improve upon consistency and regulatory interpretation by 
offices within AIR and AFS, as well as between our two 
organizations. It is clear that long-term planning and cultural 
change is essential to make the improvements sought by 
industry. In order to address the recommendations as soon as 
practical, the FAA's plan for section 313 identifies near, mid 
and long-term priorities related to each recommendation.
    The primary focus area identified by industry was a 
standardized methodology, whereby all FAA guidance documents, 
including legal interpretations affecting compliance with the 
regulations are linked to the respective regulation. The FAA is 
currently reviewing existing data systems to determine how best 
to achieve this goal. As one of the near-term strategies, we 
are identifying existing guidance documents used by FAA 
personnel that are not catalogued in one of our electronic 
databases.
    We expect to identify all such documents and establish a 
protocol to determine if such documents are still applicable, 
in which case they will be integrated into one of our existing 
electronic systems by the end of 2014. As the reports we have 
submitted in our testimony indicate, the FAA is making progress 
in addressing the concerns identified in the Act. We understand 
the importance of the recommendations, and are committed to 
following through with their implementation. Our efforts are 
transparent and are being done with the support of industry. 
The implementation of these improvements provides a path 
forward for the FAA to meet the ongoing and future demand of a 
dynamic industry that is crucial to the economic interests of 
all Americans. We look forward to working with this industry 
and the subcommittee to achieve these goals.
    Mr. Chairman, this concludes my statement. Mr. Duncan and I 
will be happy to answer any questions you have at this time.
    Mr. LoBiondo. Thank you very much, Ms. Baker.
    Our next guest witness is Dr. Gerald Dillingham, director 
of Physical Infrastructure Issues at the Government 
Accountability Office.
    Dr. Dillingham, we thank you for being here. You have been 
at this a number of years. I am trying to remember just how 
many, but I know it is a bunch.
    Dr. Dillingham. Sir, I don't remember exactly how many 
times myself.
    Mr. LoBiondo. OK. OK. But we thank you for your expertise 
and welcome your remarks.
    Dr. Dillingham. Good morning, Mr. Chairman, Ranking Member 
Larsen, members of the subcommittee.
    Thank you for inviting me here today to discuss FAA 
certification processes and inconsistencies in regulatory 
interpretation. In 2010 at the request of this committee we 
conducted a study of these issues. Overall, we found that the 
aviation industry views the certification and approval 
processes as generally working well and making positive 
contributions to the safety of the National Airspace System.
    I happen to know circumstances where there are 
inefficiencies. It can result in costly delays, particularly 
for smaller operators. We made two recommendations to address 
these inefficiencies. Section 312 and section 313 of the FAA 
Reauthorization Act require the agency to work with industry to 
assess the certification processes and concerns that have been 
raised about the inconsistency of regulatory interpretation. My 
statement today discusses FAA's response to those 
recommendations that we made in 2010 and the recommendations of 
two FAA-industry advisory committees regarding the 
certification and approval processes.
    FAA has taken sufficient action on the GAO recommendations 
that allowed us to close them as implemented. The Certification 
Process Committee that was established in accordance with 
section 312 developed six recommendations to improve process, 
efficiency and reduce cost. In response, FAA issued a detailed 
implementation plan earlier this year. The plan identified many 
initiatives and programs that FAA has planned and underway that 
it believes will address the committee's recommendations. 
However, FAA's plan lacks performance goals and measures to 
track the outcomes of most of the initiatives. Without these 
performance goals and measures, FAA will not be able to gather 
the appropriate data to evaluate current and future 
initiatives.
    Additionally, FAA's response does not include an integrated 
plan for achieving the desired future end-state for the 
certification process. Without this plan, FAA will not have an 
overall blueprint or guide for how or if the individual 
initiatives fit together to achieve the desired outcome of 
improving the entire certification system. Regarding 
consistency of regulatory interpretation, the Regulatory 
Interpretation Committee that was established in response to 
section 313 identified several root causes of inconsistent 
interpretation of regulations and made six recommendations to 
address them.
    The root causes identified by the committee were similar to 
those that we also identified in our 2010 study. According to 
FAA, an action plan to address the recommendations and metrics 
to measure implementation is a work in progress. The estimated 
date for completion of the plan is December of this year. We 
would note again that measuring implementation may provide 
useful information, but FAA should also develop outcome 
measures which can help determine whether the actions 
undertaken are having their intended effect.
    Mr. Chairman, Ranking Member Larsen and members of the 
subcommittee, as I stated earlier, problems in the 
certification and approval processes can cause delays in 
getting innovations and safety improvements into the National 
Airspace System and have significant cost impacts on the 
industry. With FAA certification and approval workload expected 
to grow in the next 10 years because of the introduction of new 
aircraft, including unmanned aerial systems, the increasing use 
of composite materials and aircraft and the expected progress 
of the NextGen initiative, continued progress in implementing 
the committee's recommendation is even more critical.
    To its credit, FAA has taken steps toward improving the 
efficiency and consistency of the certification and approval 
processes. It will be essential for FAA to follow through with 
its plans for implementing the committee's recommendations and 
to develop measures of effectiveness to evaluate the impact of 
those initiatives before closing the recommendations. We look 
forward to supporting this committee in its continued oversight 
to ensure the full implementation of sections 312 and 313 and 
the achievement of the intended efficiencies and streamlining 
of the certification and approval processes.
    Thank you, Mr. Chairman.
    Mr. LoBiondo. Thank you, Doctor.
    We will now turn to Mr. Jeff Guzzetti.
    Mr. Guzzetti, you are recognized for your statement and Mr. 
Guzzetti is the Department of Transportation assistant 
inspector general for aviation audits.
    Mr. Guzzetti. Mr. Chairman, members of the subcommittee, 
thank you for inviting me to testify on FAA's certification 
processes.
    As you know, certification plays an important role in FAA's 
efforts to ensure the safety of the National Airspace System. 
However, our work as well as joint FAA industry reports have 
identified opportunities for improving the efficiency and 
effectiveness of FAA's certification process. My statement 
today will focus on vulnerabilities in three areas of FAA 
certification: Organization Designation Authorization, or ODA; 
new air operators and repair stations; and NextGen 
capabilities, including the integration of unmanned aircraft 
systems.
    First, ODA: Through ODA, FAA's Aircraft Certification 
Service delegates certification tasks to aircraft and component 
manufacturers and other outside companies, making it an 
important resource for managing the industry's growing 
certification needs. However, our previous work identified 
vulnerabilities in the ODA program, including inconsistencies 
in how FAA offices interpreted FAA's role in how manufacturers 
selected the personnel to perform certification tasks.
    In response to our 2011 report and a mandate in the FAA 
Modernization and Reform Act of 2012, FAA has taken steps to 
improve its oversight of the ODA program. For example, in May 
of this year FAA issued new and more stringent guidance for 
prescreening staff prior to assigning them to an ODA. They 
established procedures for tracking and removing poor 
performing ODA staff and they improved training for FAA 
engineers on how to enforce ODA policies. As the ODA program 
continues to grow, effective oversight will remain critical to 
ensure that all aircraft certification organizations are 
following FAA's policies and procedures.
    Now, while improvements to ODA oversight are in process, we 
identified shortcomings in another area of FAA's certification, 
and that is certification of new air operators and repair 
stations by FAA's Flight Standards Service. Currently, more 
than a thousand aircraft operators and repair stations around 
the country are awaiting certification, 138 of which have been 
delayed for more than 3 years. Several factors contribute to 
this backlog, including the lack of an effective method to 
prioritize new applicants, the lack of a standardized process 
to initiate new certifications, and poor communications 
regarding FAA's certification policy. According to FAA 
officials, budget uncertainties have also contributed to these 
backlogs. Since March 2011, FAA halted certain certification 
activities several times in an effort to maintain oversight of 
existing operators.
    Finally, it is important to note that a growing demand for 
certifying NextGen technologies and procedures, as well as 
unmanned aircraft systems, will only add to FAA certification 
workload and further tax its certification staff. For example, 
FAA has mandated that airspace users equip with ADS-B Out 
avionics by 2020 to provide more accurate satellite-based 
surveillance data for reduced separation between aircraft.
    However, FAA has not certified all of the needed avionics 
that must be installed or developed and certified the 
procedures for controlling air traffic with ADS-B. Developing 
and installing these avionics may take years, and any 
certification delays translate into further delays with both 
user equipage and NextGen benefits.
    Another certification challenge along these lines facing 
FAA is its effort to safely integrate unmanned aircraft systems 
into U.S. airspace, something that could further exacerbate 
FAA's certification workload. While FAA successfully certified 
two unmanned aircraft for civil use, the agency relied on an 
older rule addressing military aircraft and only authorized 
flights over water in the Arctic.
    FAA has not yet developed certification standards for novel 
and new civil unmanned aircraft operating over populated areas. 
A wide range of safety related issues regarding unmanned 
systems also remain unresolved, including standards for 
certifying new systems, crewmembers and ground control 
stations. Until FAA establishes a regulatory framework and 
certification standards, unmanned aircraft will continue to 
operate with significant limitations in the Nation's airspace.
    Clearly, there is greater industry activity than FAA can 
support through its current certification processes. While 
continually adapting to meet industry needs is no simple task, 
strategies for enhancing the management and oversight of FAA's 
certification process must be developed and implemented, and 
our office remains committed to oversight that will identify 
areas needing attention.
    Mr. Chairman, this concludes my prepared statement. I will 
be happy to answer any questions you or other members of the 
subcommittee may have.
    Mr. LoBiondo. Thank you very much.
    The FAA's plans to streamline and ensure consistency of 
certification processes I think are a good first step. As we 
move forward, what can be done by the FAA industry and Congress 
to further improve certification and approval processes? For 
anyone on the panel or everyone on the panel.
    Dr. Dillingham. Well, Mr. Chairman, I think if FAA 
continues to implement the recommendations that came from 312 
and 313, that's a first step, because part of that means better 
utilizing some of the initiatives and some of the tools that 
they currently have. I think that partnership that was 
established by the industry FAA committee when they did the 
committee to respond to 312 and 313 is something that needs to 
be continued.
    In our work we found that whenever the stakeholders are not 
included early and continuously, the problem doesn't go away 
easily and I think congressional oversight, as you are having 
this hearing today, to get to actual implementation, oftentimes 
there are plans; but, sometimes, that implementation falls 
short. So I think continued oversight is also going to be 
critical.
    Mr. LoBiondo. Anyone else?
    Mr. Guzzetti. Well, I'd like to add that in regards to the 
flight standards service side of the equation, that is, the 
FSDOs, the inspectors that review applicants for repair 
stations, and for aircraft operators, such as crop dusters, 
there's quite a big backlog, over a thousand as I indicated in 
my testimony. About a quarter of those applications, about 251 
of those thousand, are older than 2 years old. It's a big 
workload and FAA only has a certain number of resources. But, 
perhaps they can move away from their philosophy of first come, 
first served, when these applicants come in. There could be a 
better way to triage these applications to look at complex 
operations versus simple operations and get more of the 
applications rolling. A different philosophy on how they 
utilize their workforce to process these applications would 
stem the tide of the backlog.
    Ms. Baker. I would echo Dr. Dillingham's comment in regard 
to section 312. It provides a number of initiatives that will 
help us streamline the process. One in particular is echoed in 
the Small Airplane Revitalization Act. We are taking a relook 
at Part 23 and reorganizing it so that it is more fitted for 
the complexity and performance of the aircraft. That should 
make it much easier for applicants to get their aircraft 
certified.
    Also, Part 21 is another part of the initiatives in 312. We 
are going to be looking at a systems safety approach. So it 
will make a difference in how the applicant can apply the rules 
and we can apply our resources from a safety approach.
    Mr. LoBiondo. Do you believe the use of designees is safe?
    Ms. Baker. Yes, I do.
    Mr. LoBiondo. Dr. Dillingham?
    Dr. Dillingham. Yes, I do, Mr. Chairman. And I think the 
reality is there is no way that FAA can carry out all of its 
responsibilities without the use of designees. I think the 
critical dimension is proper oversight and accountability, and 
this is something that they've been doing for decades. It's 
just a matter that it still needs monitoring, and it frees up 
FAA to actually work on those, to spend more time and attention 
on the real safety-critical aspects of certification.
    Mr. Guzzetti. Sir, I think generally, yes, although I do 
think it's an open question. I absolutely agree with Dr. 
Dillingham that oversight is key. ODA is yet one layer removed 
of FAA direct oversight of certifying products, and FAA needs 
to have the companies who know the product best help them with 
taking care of all these technical aspects. But delegation, 
which has been used in this Nation for decades, has always 
needed strong oversight by the FAA. So as long as that's 
maintained, then it will remain a safe process.
    Mr. LoBiondo. For the FAA, when will the 313 implementation 
plan be completed? And is it being developed with input from 
the ARC members, and what role is labor taking in the process?
    Mr. Duncan. Yes, first of all, we are working with the ARC 
members in developing the 313 plan. The 313 plan has short-
range, mid-range and long-range goals. We are working the 
short-range goals right now to include the required fix to the 
rulemaking process. It would make sure that the guidance in 
rules that we produce, in the preambles, that they clearly 
state the purpose of the rule and the technical requirements of 
the rule, as well as the intent of the rule. Also we are 
evaluating the training that's required for those folks who 
write the rules and later interpret the rules and what kind of 
guidance should be involved. We are also evaluating the 
existing IT systems that we have for the master database that 
you described earlier.
    Those are short-term goals, and we look to have those 
completed shortly. Some are completed already. The longer range 
goals are more of a challenge for us and we will continue to 
work toward those goals.
    Mr. LoBiondo. So no timeframe for implementation of 313?
    Mr. Duncan. The timeframe for implementation of the short-
term goals and the continued evaluation for long-term goals is 
this year.
    Mr. LoBiondo. This year?
    Mr. Duncan. Yes.
    Mr. LoBiondo. For Mr. Guzzetti, in your testimony you 
mentioned the weaknesses that the IT found in the 2011 report 
on organizational designation authority, in particular the 
oversight by FAA. Since your 2011 report, what actions have the 
FAA taken to address these concerns, and do you think they are 
adequate?
    Mr. Guzzetti. Thank you for the question.
    We made five recommendations from that report, and FAA has 
taken action on every one of them. They have concurred with a 
plan to revise their policy to require a full, 2-year 
transition before an ODA unit can begin to self-appoint their 
own designees. They developed explicit guidance on the process 
to remove an ODA unit member in a timely fashion. They are 
tracking unit member appointments better.
    They have concurred and are developing new training and 
guidance for its certification engineers that never used to be 
in the habit of being an enforcer, of taking enforcement 
action. But with ODA they have to now, and we found in our 
audit that the engineers weren't familiar with the enforcement 
process. So FAA has instituted training and guidance in that 
regard, and they also concurred with our recommendation to 
improve the oversight structure for large ODA organizations by 
again developing training and assessing the effectiveness of 
the new oversight structure. So they have moved out and 
completed just about every one of our recommendations in this 
regard.
    Mr. LoBiondo. My last question, Dr. Dillingham. What can be 
done by the FAA now in recognizing the current situation and 
new regulations or additional resources to improve its 
certification and approval process.
    Dr. Dillingham. Thank you, Mr. Chairman. I think the first 
thing is something that FAA is currently doing, that is making 
the best and highest use of the tools that they have. It is 
also, I think, to implement those recommendations, fully 
implement those recommendations that came from 312 and 313, and 
establish some accountability up and down the line from the 
very top to the very bottom of actually implementing the 
recommendations. Of course, it is going to be tough in terms of 
the whole fiscal situation for the country, but getting more 
from what you already have is a first step.
    Mr. LoBiondo. Thank you.
    Mr. Larsen?
    Mr. Larsen. Thank you, Mr. Chairman.
    First, for Mr. Guzzetti, you talked about ODA a little bit 
here and guidance for the engineers. Have you assessed whether 
or not FAA Aircraft Certification Engineers have enough 
direction regarding which activities should be delegated and 
which should not?
    Mr. Guzzetti. Congressman Larsen, I think that area could 
use some improvements. We addressed an aspect of that in our 
2011 report, specifically in regard to a tool that FAA 
developed called the risk-based resource targeting, or RBRT 
tool, for engineers to use. And at the time the RBRT tool 
wasn't a part of the ODA program, but we were requested to look 
at it, I think now it can be a candidate for ODA.
    We found some problems with that tool. RBRT is the tool 
that was designed to assist FAA engineers in prioritizing how 
complex a project was to give them a better feel for whether it 
should be delegated or whether FAA should address it directly. 
And we found a lot of problems with that tool. There were 
software glitches, but also we felt that there wasn't enough 
objective data feeding into the tool for its use; and there 
wasn't enough training for folks to use that tool. 
Additionally, even after the tool would provide guidance to the 
engineer, the engineer had the option to not use the 
prioritization if the engineer was biased.
    We made a recommendation in that regard; and FAA responded 
and they are attempting to resolve the software glitches. Right 
now, I believe it's just a voluntary tool to be used, but it 
would greatly enhance FAA's ability to have another objective 
input to decide whether or not they should delegate an aspect 
of certification or keep it close hold.
    Mr. Larsen. The term ``software glitch'' up here has a 
whole new meaning in the last 4 weeks. So I am trying to stay 
away from--just trying to find what that is.
    Can you, though, Ms. Baker, respond to Mr. Guzzetti's 
comments regarding what should be and what should not be 
delegated, whether there is enough guidance for engineers?
    Ms. Baker. Yes, Mr. Guzzetti characterized our problems 
very, very accurately. The tool was supposed to provide a 
standardized methodology for all of our engineers to use, so 
that it wasn't just a personal bias just from the start. But it 
does allow the engineer to use engineering judgment. The idea 
is to try to understand the complexity of the design, 
understand the experience of the company that you are working 
with, understand the clarity of the regulation.
    All of these will eventually be put into the tool along 
with additional data, as Jeff said. We were trying to get other 
sources so that the engineer is aware of failures within the 
system. So when we get that complete, we will implement it 
wholly across all of our service and offices, and they'll start 
using it at that time. They'll also start using it for the 
ODAs. At this time they are not using it for ODAs.
    Mr. Larsen. And on that last point, is that one of the 
issues that is a limiting factor for the FAA on using or 
delegating the full panoply of ODA authorities? Right now, some 
folks aren't able to use all that is allowed through the 
delegation authority. Are there limiting factors to allow that 
to happen?
    Ms. Baker. Yes. I wouldn't say that this tool is the 
limiting factor. That tool is supposed to identify what areas 
within the actual, tight certification would be delegated and 
not delegated. When the companies are talking about full 
authority, we believe that they are really saying that whatever 
is authorized under our orders should be granted to them, which 
actually goes beyond certification. So there would be quite a 
few things associated with that. Issuance of certificates, for 
example, if they have a production certificate under their ODA, 
they would have a lot of autonomy. We are trying to get metrics 
that will measure how much autonomy they should actually have.
    Mr. Larsen. Dr. Dillingham, I'll finish here so the other 
side is ready. You mention on page 10 of your report a couple 
of issues with regard to the consistency of regulatory 
interpretation, ARC and the issue of fear of retribution, 
perhaps by industry players, if they are complaining. There was 
a gentleman in my district office, a few weeks back I met with 
on, getting the name or company, a small company in the 
district.
    And he talked about this issue of fear of retribution from 
the regulator, from the certificator, if they even knew that he 
was in my office, much less if he complained to them directly 
about it. It sort of reminds me of one of the many classic 
lines from the movie ``Blazing Saddles,'' where old lady 
Johnson delivers a pie to Sheriff Bart and she says, ``Of 
course, we have the good common sense not to mention to anybody 
I was here.'' And that's kind of what I felt like this guy was 
so concerned about retribution from the regulator for even 
bringing these issues up to me that he didn't want to be known.
    Can you assess that that's prevalent? I will give you an 
opportunity to respond to this, Ms. Baker. Is that prevalent? 
Is that a one-off? Have you looked at that? Can you address 
that?
    Dr. Dillingham. Thank you, Mr. Larsen.
    We did hear that from the stakeholders that we interviewed 
when we were doing the work for this committee a few years 
back. And the way it worked was that an applicant would be 
concerned about raising a dispute with their specific 
inspector, raising it up to the FSDO level or raising it up to 
the FAA headquarters level, because even if they won, they were 
concerned that that same inspector would be back to inspect 
something else later on, and there might be a problem with 
that.
    So FAA, to its credit, has a system in place that allows 
you to appeal all the way to the top, but that fear of 
retribution meant that the system wasn't being used as much as 
FAA thought it might be used. How widespread that problem is, 
we weren't able to assess. I wouldn't say it is one-off, and 
that is one of the most difficult things to do. It is the 
cultural change that will be necessary, that inspectors are 
willing to do something different than the way they have in the 
past. And, in another way, the tool that one of the committees 
recommended was to have this comprehensive database with all of 
the regulations, the various interpretations that have been 
made of it, so that the inspector had a ready source to go and 
look and see there is another way to do this.
    There have been other alternatives, so, hopefully, we are 
just sort of moving towards a cultural change, putting this 
comprehensive database in place that we will have or hear fewer 
experiences like that. It certainly is a problem. How 
widespread, we couldn't say.
    Mr. Larsen. Yeah. Thanks.
    Ms. Baker, do you want to respond to that? Or Mr. Duncan? 
Yeah.
    Mr. Duncan. If I may, thank you, sir.
    Mr. Larsen. Sure.
    Mr. Duncan. The relationship between our inspectors and the 
stakeholders is a one-to-one relationship in many cases through 
flight standards. It depends on a professional relationship 
between the two parties. That, in some cases, is challenging 
for us. We understand the perception in some cases of potential 
retribution, and we are concerned about that.
    Number one, we obviously do not condone any kind of 
retribution. We also understand that there is a cultural 
challenge in dealing with certain cases. I think this is the 
case with both parties, on the part of the FAA and the part of 
the stakeholders as well. We are working to try to address this 
concern through several different mechanisms, including the 
recommendations of 313. To have clearer and more concise 
guidance is important to address these concerns. We need to 
promote within our organization the attitude that we are always 
looking for a consistent answer to the question. That is part 
of what we are trying to do.
    Mr. Larsen. Yeah. Thank you, Mr. Chairman.
    Mr. LoBiondo. Mr. Bucshon?
    Dr. Bucshon. Thank you, Mr. Chairman, Ms. Baker. Hi. Over 
here!
    There was described there is a backlog of--you know--as 
much as 3 years in the approval process. What is the rate 
limiting step when you have that type of what I would prolonged 
approval process? Is there a specific area within the process 
that generally causes that kind of delay?
    Ms. Baker. Yes. There are actually two, different 
sequencing processes. I will let John handle the actual 
certification of the airlines, and then I will cover the other.
    Dr. Bucshon. Right. There are two. I understand.
    Ms. Baker. Yes.
    Dr. Bucshon. In your particular instance, what would be 
the----
    Ms. Baker. Yes. In 2005 we implemented a sequencing 
process, because we needed to ensure that we meted in the 
certification work so that we could reserve resources to work 
on our main priority, which is safety, and the continued 
operational safety of the aircraft that are in the fleet. The 
limiting factor is just the capacity of our engineers to do the 
work. We recognize that the process that we had in place was 
fraught with problems. The biggest complaint was that there was 
no predictability. There was a situation where the applicant 
would put in their application, and they would be in the queue 
for an indefinite period of time.
    We took those comments on our original process, rewrote our 
process completely, put that process back out for comment. When 
we finished dispositioning all the comments from industry, we 
put a revised process for sequencing out. It will still 
sequence. It's basically going to be prioritization of specific 
resources, but it won't hold up the initiation of the projects.
    So from here out, after we implement this in 2014, when you 
put in an application, you'll immediately be able to initiate 
your project; and then the limiting factor might be a 
particular specialty in engineering to issue a special 
condition where there's a novel item in the design of the 
aircraft. If there isn't, it would just flow through the system 
and there wouldn't be any holdup anymore.
    Dr. Bucshon. OK. Mr. Duncan?
    Mr. Duncan. Yes, sir. Our primary responsibility and 
highest priority is to maintain the safety of the existing 
system, the operators that are currently out there. So in order 
to protect our ability to do that, we created the certification 
services oversight program. When an applicant files an 
application, or when a stakeholder files an application for 
some kind of certificate, we first evaluate whether the 
resources are available in that jurisdiction to support the 
initial certification of the operator and the ongoing oversight 
of that operator.
    If they don't exist in that office, we look more broadly to 
see if it can be done by someone else or somewhere else. If 
that can't happen, then the application is placed on the wait 
list. For all practical purposes, the certification oversight 
process is where we keep applicants informed, on a 90-day 
basis, of where they are in the process. The limitation in that 
process is our resources, the resources to perform the required 
work that needs to be done and to provide the ongoing oversight 
of the new operator that's created.
    Dr. Bucshon. Thank you very much.
    I yield back, Mr. Chairman.
    Mr. LoBiondo. Ms. Johnson?
    Ms. Johnson. Thank you very much, Mr. Chairman, and let me 
thank all the witnesses for being here.
    Your last statement about the resources, I do have a 
question about the recent Government shutdown and the budget 
cuts, hiring freezes, and some say they were sequestered. It 
has had the affect on FAA's ability to attract and retain 
qualified staff for aircraft for Flight Standard 
Certifications. And I wonder also about the kind of risk that's 
based on improving the aviation safety and wonder if you had 
those impacts to deal with and how it's affected it.
    Mr. Duncan. Well, I'll start from a flight standards 
standpoint and say that the challenges that you described, the 
impact on us is that we evaluate the resources that we have 
available to make sure that we cover the continuing operational 
safety requirements that we have. Because of the resource 
constraint, we expect that we will have slower response times 
in terms of what we just described, the certification processes 
and so forth. It'll be slower and our ability to use overtime 
and travel expenses may also impact those things.
    New operators will likely be delayed, as we talked about a 
minute ago, and that may have an impact on small businesses. 
There may be significant delays associated with those 
operators. Additionally, operators that require changes, such 
as new aircraft on their certificates or training program 
approvals and so forth, may be delayed beyond the time that 
they would plan to implement those things, because of the 
resource constraints.
    Ms. Johnson. One further question. Just earlier this year, 
just before the shutdown came, there was an air control tower 
open, and--with the promise that staff would be furnished for 
the control tower. And after much discussion, that promise was 
kept, but also we are very aware that there is some threat to 
that. Now, how much of that is being experienced throughout the 
country, and for air traffic controllers?
    Ms. Baker. Thank you for the question, but that's something 
handled by Air Traffic Control. So we could take an action to 
get back to you on that.
    Ms. Johnson. OK. Thank you very much.
    Mr. LoBiondo. Mr. Davis?
    Mr. Davis. Thank you, Mr. Chairman.
    I just want to note that both panels today have testimony 
that references the Small Airplane Revitalization Act. I am 
proud to cosponsor this bipartisan bill that would improve 
general aviation safety and spark innovation in the private 
sector by streamlining regulations. It appears this bill is 
getting very close to being presented to the President.
    You take a look at bills like that and ODA, and this 
committee has some good momentum and I hope we are able to keep 
it going. My question is going to be directed to Director 
Baker. Thanks for your role in ensuring the safety of our 
system. GAO made two recommendations in 2010. FAA has addressed 
one, but still has a little work to go on the other.
    GAO indicates that performance measures are necessary for 
FAA to be able to evaluate current programs. Can you talk about 
what you are doing to institute these performance measures?
    Ms. Baker. Yes, Gerald was correct. We found that setting 
performance measures is very difficult. You have got to be sure 
that you don't create unintended consequences. The approach 
that we chose to take was to develop a vision and pull together 
all of the initiatives in the section 312 response, and then to 
start working with industry to develop those metrics.
    We have milestones and goals to meet each of the 
initiatives. The actual effectiveness and efficiency metrics 
will be built as we work through the projects. It will have to 
be done very, very carefully, again, so that we don't cause 
things to happen that we hadn't intended to have happen.
    Mr. Davis. I yield back, Mr. Chairman.
    Mr. LoBiondo. Mr. DeFazio?
    Mr. DeFazio. Thank you, Mr. Chairman.
    I have pretty much a very simple question or observation. 
It seems to me I've been on this committee an awful long time, 
and I remember when Libby Dole cut back on the inspector work 
for us big time.
    I don't think we've ever recovered from that, and I guess 
my question is--we have testimony in the next panel from 
Michael Perrone from PASS, and he says, ``The balance of FAA 
oversight is insufficient. The high number of designees''--and 
he talks about that basically people are just chained to their 
desks reviewing paperwork or answering questions, but they 
really can't get out any more because of the impossible 
workload they're being given.
    Do we have--and I guess the FAA has actually studied this 
issue and they've come up with varying numbers. Do we have 
enough people? We can talk about all the systems, changes we 
want to make, and all the other things we want to do and all 
the computer applications, and all this streamlining and all 
that stuff; but if you don't have enough people to provide the 
critical oversight of the designees program--which I think is a 
good program when properly overseen--it's not going to work. Do 
we have enough people?
    Dr. Dillingham? Anybody? Do we need more?
    Dr. Dillingham. Well, Mr. DeFazio, you know, of course, FAA 
can always use more people. I mean its responsibilities are 
ever-expanding, and we support that, but we also--there's a 
reality of the fiscal condition that we all are in. So that 
means that you have to make the best of the resources that you 
have.
    Mr. DeFazio. Well, I get that, but OK. So let's not be 
fiscally constrained. We could look at novel ways to--you know. 
I mean if the people who are developing the new systems and new 
aircraft, the new avionics, all the other things are feeling 
like they're being held back so much in terms of their 
productivity. They might be happy to contribute some money to 
the FAA to hire more people so that they could get more timely 
reviews more quickly.
    Dr. Dillingham. I think you hit the nail on the head when 
you started off, Mr. DeFazio, by saying a properly overseen 
designee program is probably the quickest, most efficient way 
to expand the resources available to carry out the work. That 
oversight has to be top-notch. Otherwise, you do start to risk 
issues of safety and other related matters.
    Mr. DeFazio. I think we have seen with some other agencies 
over at the--overseeing pharmaceuticals, the FDA or the Corps 
of Engineers, sometimes, on major projects where they 
essentially allow people who have an interest to contribute 
resources; but the resources are not employees of or 
responsible to those who contributed the additional resources. 
They are responsible to the agency doing the reviews. And so 
you are still having the amount of oversight you need, but you 
are providing more people.
    Isn't the number of people ultimately going to be a choke 
point, no matter what we do here and no matter how efficient we 
make this? No matter what reforms we adopt, they're still 
shuffling stuff around.
    Dr. Dillingham. Absolutely.
    Mr. DeFazio. Anybody else got a different opinion or want 
to augment that opinion?
    Ms. Baker. No. I don't think that there is a different 
opinion. There is, obviously, a point where you've got a 
diminishing return. You can only have as many designees as you 
can have enough employees to oversee those designees 
appropriately. What we're trying to do is to develop processes 
and procedures and tools so that they can do a better job at 
oversight by making sure that FAA inspectors are doing their 
jobs strategically, instead of using the personal preference of 
an individual. If you can determine which areas you, as an 
inspector, should target, then the idea is that you would use a 
system safety approach and it would direct you to the areas 
where you should concentrate.
    That way, you'd use fewer people. But there is, obviously, 
a point where you cannot delegate any more. You have to have 
more people.
    Mr. DeFazio. Hm-hmm. OK.
    Mr. Guzzetti. Congressman DeFazio, I just wanted to 
piggyback off that statement. Because of the fiscal 
constraints, because of the inability to hire new inspectors, 
it's up to FAA to make sure that they have the best process to 
target what limited resources they have to risk, and we just 
issued a report this past March regarding a staffing model that 
FAA has, that they've been having some difficulties with.
    But it would be helpful if there was a model to at least 
identify how many inspectors FAA needs, given the demand out 
there, and we made some recommendations along those lines. And 
that model was also meant to not only include flight standards 
inspectors, but also aircraft certification engineers and 
inspectors. It's not there yet, but perhaps that could be very 
helpful to FAA to get that model up and running.
    Mr. DeFazio. Right. But, you know, if we target the people 
to the risk areas--I fly a lot and am happy with that--but that 
leads to the statistics we heard earlier in all these routine 
things that become a bigger and bigger backlog. Isn't that 
correct?
    Mr. Guzzetti. It's definitely a balancing act. You heard 
Mr. Duncan indicate that continuing operational safety should 
be the priority and that has impacted his ability to process 
new applications. It's a big challenge, but it's one that has 
to be tackled. And to not allow any new applicants to begin at 
the exclusion of continuing operational safety, I don't know if 
there's a proper balance right now.
    Mr. DeFazio. All right.
    Thank you, Mr. Chairman.
    Mr. LoBiondo. Mr. Williams.
    Mr. Williams. Thank you, Mr. Chairman. I want to thank all 
of you for being here today. Appreciate it. I'm from Texas. We 
have got a lot of aviation in Texas, and especially in my 
district. And, also, I just want to add one thing. I am a small 
business owner, and I hear what you are saying about balancing 
and this and that, and remind you in all due respect that small 
businesses are balancing right now. That's the nature of our 
economy to get the most; sometimes the least, but I appreciate 
what you all are doing.
    My question would be to Mr. Guzzetti. Of course, safety is, 
I know, everybody's top priority and we appreciate the record 
that you have. But I guess I would ask at least in here with 
all that in mind to find a balance between streamlining your 
processes, your certification processes, and make sure it 
doesn't compromise. Are you able to do that, make sure it 
doesn't compromise with what we call the gold standard of 
safety that you all have?
    Mr. Guzzetti. I think there's probably ways to do it. I 
don't know what they are. I think FAA needs to explore those 
additional processes or a different process for efficiencies. 
Right now, the general philosophy at these flight standards 
offices is to process these new applicants that come in, 
whether it be a small airline or a repair station that wants to 
start up, on a first-come-first-served basis.
    But, when you look at the guidance, it can allow some 
flexibility for the FAA to bypass that process, marshal their 
resources, and not let a complex project clog the pipeline of 
simpler projects behind it. So FAA could explore those 
flexibilities to add a little more balance.
    Mr. Williams. Compromising safety is not anything we want, 
so.
    Mr. Guzzetti. No, absolutely not. Safety should always 
remain FAA's number one priority; but, by the same token, they 
also are the regulator and the organization to give the green 
light to small business. Safety should be number one, but they 
have this other component they need to perhaps make more 
efficient.
    Mr. Williams. Thank you, Mr. Chairman. I yield back.
    Mr. LoBiondo. OK. Thank you, Mr. Williams.
    Mr. Larsen, do you have any thing else?
    Mr. Larsen. One more question.
    Mr. LoBiondo. OK.
    Mr. Larsen. Dr. Dillingham, in April you testified before 
the Senate that ``When faced with the certification of new 
aircraft or equipment, FAA staff have not been able to keep 
pace with industry changes, and thus may struggle to understand 
the aircraft or equipment they are tasked with certificating.''
    Do you think that is a major problem? If so, what steps can 
the FAA take or is it taking to address that concern?
    Dr. Dillingham. Thank you for the question, Mr. Larsen.
    We heard that opinion from some of the stakeholders that we 
interviewed about FAA's capabilities. I don't think that that's 
a major problem at this point in time. It could take on more, 
become more of an issue as their workload expands and different 
technologies come in. But our experience in looking at FAA, for 
example, when we did the work looking at the composite 
components of the Boeing Aircraft, we found that FAA had taken 
numerous steps to train its workers, establish centers of 
excellence, work with the industry to understand what's going 
on.
    So our experience, at least in that example, shows that 
when FAA sees an issue that requires that kind of technological 
expertise that it reaches out to industry, hires people when it 
can, but also makes sure that its current workforce is up to 
speed on things. So now we don't see it as a major problem; 
and, again, the future is to be determined.
    Mr. Larsen. Yeah.
    Ms. Baker and Mr. Duncan?
    Ms. Baker. I agree. No entity is going to have the 
expertise in every, single, new technology. Especially when 
industry is consistently pushing the boundaries of technology. 
Our people gain experience through the certification of the new 
technology, but they also work with committees, like RTCA and 
SAE. Our people are in amongst the world-renowned experts and 
absorb the information from them, and rely upon them in many 
cases. We can go to contractors, like Volpe, if we need 
expertise in a particular area. So all of these are at our 
disposal.
    In addition, we have chief scientists within our 
organization, whose sole role is to go out and to learn more 
about new technology and bring information back to our 
engineers. When we do see that we are, maybe deficient in a 
particular area, or not multistranded in a particular area, 
then we'll provide the training for those individuals who need 
it so that they can be up to speed with the technology that's 
presented to them.
    Mr. Larsen. Thanks. Thanks.
    OK. Thank you.
    Mr. LoBiondo. Thank you, Mr. Larsen.
    To our first panel, thank you very much. We will take a 
very, very short break, allow the second panel to get set up 
and then proceed again.
    [Recess.]
    Mr. LoBiondo. Thank you. We will pick up with our second 
panel. We welcome Mr. Peter Bunce, president and CEO of the 
General Aviation Manufacturers Association; Mr. Tom Hendricks, 
president and CEO of the National Air Transport Association; 
Mr. Michael Perrone, president of Professional Aviation Safety 
Specialists; and Mr. Ali Bahrami, vice president of civil 
aviation, Aerospace Industries Association of America.
    Peter, you are recognized.

    TESTIMONY OF PETER J. BUNCE, PRESIDENT AND CEO, GENERAL 
   AVIATION MANUFACTURERS ASSOCIATION; THOMAS L. HENDRICKS, 
  PRESIDENT AND CEO, NATIONAL AIR TRANSPORTATION ASSOCIATION; 
   MICHAEL PERRONE, PRESIDENT, PROFESSIONAL AVIATION SAFETY 
  SPECIALISTS, AFL-CIO; AND ALI BAHRAMI, VICE PRESIDENT-CIVIL 
     AVIATION, AEROSPACE INDUSTRIES ASSOCIATION OF AMERICA

    Mr. Bunce. Thank you, Mr. Chairman.
    Chairman LoBiondo and Ranking Member Larsen, it is a 
pleasure to be here today and be able to discuss certification. 
Certification is a very complex topic, and it was very evident 
by the first panel and the discussion that went back and forth 
that everyone is very familiar with some of the impediments to 
this process and also the opportunities that we have as we move 
forward with being able to streamline certification.
    General aviation manufacturing in this country is extremely 
important. We are talking 1.2 million jobs, and $150 billion in 
economic contributions to this Nation's economy. But, what's 
really important is in recent years 50 percent of the product 
that is produced in this country is going overseas. That is a 
great export engine for this Nation, and that's why being able 
to get product to market is so important.
    We are one of the most heavily regulated industries that 
there are, and getting product through the system and through 
the FAA certification process has a tremendous impact on jobs. 
This committee has been extremely supportive of this journey 
that we are on with our Government regulators in both section 
312 and 313. The last Congress and the FAA Reauthorization Act 
really put a focus on this. And then, during this Congress, and 
particularly this subcommittee and the full committee, the 
support for the Small Aircraft Revitalization Act is absolutely 
instrumental.
    That is just the start. We want to be able to extend that 
to Part 27 and Part 29 for rotorcraft, and eventually to Part 
25 for transport category aircraft, because this is a new way 
of doing business, and it is very important to keep aerospace 
leadership here where it belongs. But reform is extremely 
important, and let me put the challenge that we have in front 
of us in terms of different companies that we have out there.
    If we take a small company that is trying to develop a new 
technology--and Mr. Massie was here earlier, and one company 
he's very familiar with actually looked at being able to put 
safety-enhancing, a great safety-enhancing technology in their 
new iteration of a product going out the door--and looked at 
the length of time it was going to take to be able to get that 
certified, and just said ``we cannot afford to be able to wait 
that length of time to introduce this new product. We will miss 
a market opportunity in our timing when other companies are 
introducing similar technologies,'' and they had to forgo some 
great safety enhancement, just because of the amount of time it 
took.
    You take another company, such as one that's located in Mr. 
Nolan's district. It is their first foray into a jet. They have 
only produced piston aircraft heretofore. They need resources 
to be able to be devoted to them to get this new technology and 
be able to get the help from the FAA to get that product to 
market because they haven't done that before.
    Now, compare that to some mature companies that are in both 
of your States or in Mr. Bucshon's State looking at engine 
technology, these companies are very mature. They set up these 
ODAs to be able to go and have a safety system in place that 
recognizes that when they are doing something that they have 
done time and time again, they have competencies built up. So, 
Mr. Larsen, when you ask that question about what you delegate 
and what you don't, the system recognizes that they have 
competencies. But when they are doing something new and novel, 
then resources can be devoted there.
    So leveraging resources becomes so very, very important, 
and the burn rates for some of these companies are very huge. 
When you look at a larger company, a burn rate in a development 
program is up to $10 million a month; and, when it is extended 
out for a year, you are talking real dollars. When you are 
talking a smaller company and you look at investment dollars 
and the requirement of investment capital to get a return on 
investment, but you have to go back and tell them, ``Well, the 
certification process is uncertain. It could take 3 years or it 
could take 5 years,'' that investment just doesn't happen, 
because of that uncertainty.
    The return on investment is too far out there, because of 
the certification process. So, if we allow delegation to work 
through an ODA, we free up resources to be able to go to those 
newer companies. And unfortunately, I can give you a list as 
long as my arm of companies that just couldn't make it because 
they ran out of money in the certification process. So 
leveraging these resources becomes absolutely critical.
    Implementation is the key. As Dr. Dillingham brought out, 
we've started a journey, but it is just not enough for the FAA 
leadership, which I believe really is behind this effort and is 
in concert with us to try to make this process more efficient. 
But you can't just put out edicts from headquarters without 
putting in the implementation criteria, actually having metrics 
that we can measure and be able to come back to this committee, 
and you all asking important questions, ``Are we making 
progress?'' It's got to be measurable.
    We need to be changing job descriptions; we need to be 
changing that culture, and you heard that in the first panel. 
Cultural change is the real driver to be able to make this 
work. And, finally, what I want to emphasize is this gold 
standard. The erosion of the gold standard is something we are 
very concerned about. FAA should be the standard for 
certification across this entire planet, so we have got to make 
sure that we keep talking to international authorities about 
the robustness of our programs and how we produce the safest 
products on the planet.
    Thank you.
    Mr. LoBiondo. Thank you.
    Mr. Hendricks?
    Mr. Hendricks. Thank you and good morning, Chairman 
LoBiondo, Ranking Member Larsen and other members of the 
subcommittee.
    We appreciate the opportunity to speak to the subcommittee 
today, and thank you for your foresight in conducting this 
hearing. It is good to testify before the subcommittee, again, 
in my new role as the president of the National Air 
Transportation Association. Our members represent--are 
characterized by small businesses at the Nation's airports. We 
have over 2,000 members.
    As stated earlier, we operate in a very highly regulated 
environment. Our members include fixed-base operators, charter 
companies, maintenance repair stations, flight schools and 
airline service companies. The 2012 FAA Modernization Reform 
Act played a large role in how our companies are regulated, and 
I am pleased to provide comment today.
    Specifically, regarding section 313, the consistency of 
regulatory interpretation, as you are aware, NATA cochaired the 
Aviation Rulemaking Committee. We were honored to do that. The 
FAA has a challenging environment. They have eight regions, 10 
aircraft certification offices, and 80 flight standards 
district offices. And so we need to strike a proper balance 
between the different operating environments that these 
companies find themselves in.
    I'll give you an example of one of our members. A member, a 
charter company, actually moved an aircraft to a different 
region of the FAA. To get that aircraft placed on their 
operating certificate in that region required 5 weeks. During 
this time, this small company spent $25,000 trying to comply 
with the new requirements in this new district, and they had to 
forgo over $200,000 in revenue. Again, these are small 
businesses. Thirty percent of our members have 20 employees or 
less. These are make-or-break decisions, so we support reform 
in this regard.
    The Aviation Safety Information System that the FAA is 
developing is a step in the right direction, and we support 
this system that provides the ability to coordinate, not only 
within the Flight Standards Service and the Aircraft 
Certification Service, but between those two organizations. We 
view it as a positive development.
    Specifically, regarding section 312 of the Act, we strongly 
support the modernization of the certification processes, and I 
agree with Mr. Bunce's comments on this issue. We are concerned 
about the rapid pace of technology evolution in the aircraft 
environment, in the FAA's ability to keep up with that pace. 
Right now, there are safety enhancing and economic enhancing 
technologies that are just slow to the market, because of the 
FAA's struggles with certifying this new equipment.
    And we are concerned that as technology rapidly evolves 
over the coming years that there will be a larger bow wave of 
requirements, and we are going to fall further and further 
behind. The FAA has acknowledged this. We are working with 
them, trying to be very solution-oriented, and we agree that 
expanding the ODA, the Organizational Delegation Authorization, 
is a correct path and will yield results. And we couldn't do 
that without the great work force we have already with the 
inspectors. So it is a community-industry-Government effort to 
try to expand this program and leverage the talent that we 
already have.
    So, in conclusion, I would like to say that we all have 
helped create the safest, most complex aviation system on the 
planet. We can't lose sight of that. It has taken strong 
collaboration with our regulator, with industry, and the 
oversight of the Congress. We are very thankful for that, and 
what we would like to see in the future is an FAA that provides 
more agility to respond to these ever-evolving, safety-
enhancing technologies that can improve our businesses and grow 
jobs. With that, I'll be happy to take any questions you might 
have.
    Thank you.
    Mr. LoBiondo. Thank you.
    Mr. Perrone?
    Mr. Perrone. Chairman LoBiondo, Ranking Member Lawson and 
members of the committee, thank you for inviting PASS to 
testify today.
    PASS represents approximately 11,000 FAA employees, 
including over 3,000 aviation safety inspectors in the flight 
standards and manufacturing bargaining units. We appreciate the 
opportunity to present our views on the FAA certification 
process and ways to improve it for the safety and efficiency of 
the aviation system.
    The FAA certification process is intended to ensure 
aircraft and equipment meet FAA's airworthiness requirements. 
Section 312 and 313 of the FAA Reform Act included requirements 
for the FAA to streamline the certification process and address 
inconsistencies. In response, the FAA created two Aviation 
Rulemaking Committees to analyze the certification process and 
make recommendations.
    Regarding the ARC recommendations, we agree that the 
certification process is in need of some streamlining; however, 
we don't believe that creating additional steps or layers of 
paperwork is the most efficient way to achieve this goal. In 
fact, paperwork requirements included in the FAA's CPI guide 
and other guidance contribute to inefficiencies rather than 
address it.
    PASS recommends conducting a review of agency regulations, 
policies and procedures in the certification process to 
eliminate those that are inefficient, redundant and 
conflicting. PASS also supports the development of a database 
to monitor and track certification process improvements. The 
ARC also recommends that the FAA enhance its use of the 
designee program. PASS has serious concerns with this 
recommendation. The FAA cannot keep delegating out work without 
an adequate number of inspectors to oversee the designees. In 
our view, this is an aviation safety issue.
    Oversight is especially difficult to ensure in the ODA 
program where an entire corporation performs work on behalf of 
the FAA. Since inspectors are only able to examine a small 
portion of a large company, it is literally impossible to 
ensure sufficient oversight. When the ODA program was first 
introduced, it was intended to allow companies with the highest 
expertise and capabilities to serve as an extension of the FAA. 
Now there are 76 ODAs, and the FAA intends to expand this 
program.
    The level of work and the oversight needed to ensure proper 
surveillance of designees and ODAs must be addressed. This 
committee asked what can be done in the near term to improve 
the certification process. The number one way to improve the 
process is through additional inspector staffing. There are 
currently 139 manufacturing inspectors. Unbelievably, that 
number has not changed for over a decade, despite the steadily 
increasing level and diversity of work and responsibility 
including oversight of the designee program.
    Certification activity is on the rise due to industry 
changes and advances in technology. At the same time, budget 
cuts resulting from sequestration are preventing the hiring of 
additional inspectors due to the hiring freeze; and, while 
staffing is dropping in many locations due to retirements and 
other factors, the work is steadily increasing for the 
remaining inspectors. Without a doubt, in order to ensure a 
safe and efficient certification process, there must be an 
adequate number of FAA inspectors in place to oversee these 
important functions.
    In closing, PASS wishes to express our serious concerns 
regarding the impact of the Government shutdown. For 16 days in 
October, oversight of important certification work was put on 
hold. During the shutdown, among other things, no new safety 
design approvals were addressed, quality system audits and 
supplier control audits were delayed. Investigations were 
altered and safety data was not evaluated. When a limited 
number of inspectors were called back during the shutdown, they 
were directed to focus only on continued operational safety and 
stop all certification work.
    Aircraft manufacturers and the aviation industry as a whole 
depend on FAA employees being on the job to review and certify 
new equipment on a timely basis. These critical employees must 
be given the tools and resources to continue performing their 
important work.
    Thank you for your attention to this important matter. I 
would be happy to answer any questions you have.
    Mr. LoBiondo. Thank you.
    Mr. Bahrami?
    Mr. Bahrami. Chairman LoBiondo, Ranking Member Larsen, 
distinguished members of the subcommittee, thank you for 
allowing AIA to submit testimony at this important hearing.
    I am Ali Bahrami, vice president for civil aviation at the 
Aerospace Industries Association. AIA represents the interests 
of over 380 U.S. aerospace and defense manufacturers. Our 
members have a keen interest in efficiency of the FAA 
certification activities, because those activities govern our 
ability to bring new and innovative products to the market.
    Before joining AIA earlier this year, I worked 24 years in 
the FAA's aircraft certification service. In 2012 I also served 
as the cochair of the agency's Aviation Rulemaking Committee, 
formed in response to section 312 of the FAA Modernization and 
Reform Act. I think it is appropriate to first recognize the 
dedication and technical expertise of the FAA certification 
work force.
    Our aviation system is the safest in the world. This is 
partly due to effective partnership between aircraft 
manufacturers and FAA certification staff. While industry has 
continued to grow, certification offices have been facing 
budget cuts, hiring freezes, and furloughs due to sequester and 
the Government shutdown. Expecting the FAA to keep pace with 
industry while conducting business as usual is not realistic.
    If the streamlining is not implemented properly, FAA will 
not be able to keep up and will begin to fall behind our global 
competitors. FAA's response to the 312 ARC recommendation has 
been very encouraging. The FAA has developed detailed 
implementation plans for all six recommendations, and work has 
already begun on several of them. We are also pleased that the 
FAA's plan includes establishment of a joint FAA-industry group 
to review the implementation progress.
    The AIA welcomes the recommendations made by the so-called 
313 ARC, the committee charged with addressing the 
inconsistencies in regulatory interpretation. We are waiting 
for the release of the implementation plan for these 
recommendations. Since many certification standards are 
performance-based and not prescriptive, it would be unrealistic 
to assume that these recommendations will eliminate all 
inconsistencies.
    AIA believes development of an effective process to quickly 
resolve disagreements between applicants and the FAA staff is 
essential. Given the magnitude of the process changes, it is 
important that the FAA institute a robust change management 
process that ensures acceptance of the change by the workforce 
and successful transition. The members of the 312 ARC believe 
this issue was important enough to be included as one of the 
recommendations.
    While we are moving forward with these activities, let's 
not forget that today we have an effective tool that can reduce 
certification delays. It's called delegation. We have over half 
a century of successful history with delegation. This 
successful history supports expansion of delegation based on 
data. The AIA members can tell you obtaining an organizational 
designation authorization is not easy. It requires a lot of 
resources, care and oversight on part of an applicant. We urge 
the FAA to allow greater use of delegation, not only to take 
full advantage of industry expertise, but to increase the 
collaboration that improves aviation safety.
    Mr. Chairman, we applaud the committee for holding this 
hearing. It demonstrates to the agency that certification is a 
priority for this subcommittee; but, equally important is 
ensuring that the FAA has the resources it needs to maintain 
momentum. Like any other initiative, process re-engineering 
will take resources to implement. In some cases, this will 
divert staff from paying attention to the certification work 
and other safety matters, at least in the short term.
    The FAA's 312 implementation plan does not estimate the 
resources needed to follow through on the recommendations. We 
believe these resources should be clearly identified, reviewed 
by the subcommittee, and protected as much as possible in the 
appropriations process.
    Mr. Chairman, that concludes my statement, and I look 
forward to answering any questions you may have.
    Mr. LoBiondo. Thank you very much.
    For the whole panel, the question I asked of the first 
panel, we have heard a lot about the use of designees. Are the 
use of designees in those programs safe in your eyes, in your 
estimation?
    Mr. Hendricks. Yes, Mr. Chairman. It's a very safe, highly 
regulated environment as Mr. Bahrami alluded to, to be admitted 
in the program. With the volume of projects and the evolution 
of technology, we feel like this is a very safe, sound process 
at the FAA, and we'd like to see it expanded.
    Mr. Bunce. Mr. Chairman, designees are nothing new. Since 
the FAA was created in 1958, we've been using designees all 
along. I mean every pilot out there that flies in the system 
uses a designee just to be able to get their pilot's license. 
Using them in the certification process actually makes the 
system safer, because we are able to go ahead and leverage that 
FAA expertise and the great men and women that we have their 
work on, the engineering workforce, to go into the new and 
novel technology. So as long as we leverage this correctly, we 
are actually making the system safer.
    Mr. Bahrami. Mr. Chairman, as I mentioned during my 
remarks, we have a lot of data over the past 50 years that 
indicates that the system is working and it is safe.
    Mr. Perrone. Mr. Chairman, as I said, because we only have 
a limited number of staff, the expansion is probably a concern; 
but, overall, it's safe. But how much oversight, how much 
checks and balances can we have if we don't have enough 
inspectors to oversee the designees? So, right now, are we 
pushing the envelope, or are we at a safe place? It's hard to 
tell what. In our view, more inspectors will help make it a 
safer and continue to make it a safer system.
    Mr. LoBiondo. Also, for the whole panel, how has the FAA 
consulted with industry on gauging implementation plans and 
progress? And what role do you think should labor have and are 
they being utilized?
    Mr. Perrone. From PASS's perspective, we should be involved 
in any decisions that the agency and industry work with to have 
more eyes and ears, to be involved in would help and I think be 
as successful, because we have a particular need to make it the 
safest system in the world. So labor should be at the table 
with this.
    Mr. LoBiondo. Are they consulting with you?
    Mr. Perrone. From the PASS perspective, limited to none.
    Mr. Bunce. Mr. Chairman, I would say that we have a very 
close relationship with the engineers out in the aircraft 
certification offices throughout the country. And so there's 
constant feedback between industry and the regulator, itself, 
at that local level; one, to get consistency across the board, 
but also to be able to implement the guidance that's coming 
down from headquarters.
    Sometimes that information flows differently to industry 
than it does to Government. And that's why as we implement ODA, 
and we also just streamline the whole certification process, 
being able to have metrics in place that everyone understands, 
that we can measure and have everybody on a common sheet of 
music is extremely important. And then the education and 
training for the FAA workforce, we want nothing more than to be 
able to have very educated engineers, especially when we are 
working with new and novel technology.
    So that's why industry is very eager, and when we're doing 
something new to have them partner with us so they can learn 
along with us when we have this new technology. But when we are 
doing something that we have done routine time and time again, 
we don't need the FAA engineers down there with the sharp 
pencil down in the details. Let's focus them on areas where we 
really need them, and I think that's where the communication 
has to be.
    Mr. LoBiondo. I understand. But are they consulting with 
you or are they dialoguing with you? Or is there a back and 
forth here on some of these critical things?
    Mr. Bunce. Absolutely; there is a back and forth. Just when 
you go and you develop a plan to be able to certify a program, 
whether you are using an ODA or whether you are in the normal 
sequencing process, there is a back and forth that goes on. 
Industry will submit the plan. It's brought back to us with 
either acceptance or recommendations. So there is a process 
back and forth.
    Now, one thing that we are asking for is if a company 
actually does have an ODA that they have invested a lot of 
money to be able to set this up on the promise that the FAA 
will allow them to go ahead and administer and have these 
programs delegated unless it's new and novel. Right now, the 
process works that a lot of times the FAA can go ahead and say, 
``I'm going to retain this, this, this. You can do this, this 
and this.''
    What we'd like to do is see a process because the way the 
ODA was originally envisioned that says, ``OK. FAA, if you are 
going to retain it, give us rationale on why you want to retain 
it. Is it to train your workforce? Is it because it is new and 
novel technology?'' And then if there is a discussion about 
that, we can go ahead and elevate it to a higher level, but 
that would be a much more efficient way of administering the 
ODA and leveraging those precious resources.
    Mr. Hendricks. Mr. Chairman, I would just like to offer you 
may be shocked to know that in the aviation world our members 
are not shy about sharing their opinions, about what they are 
seeing out there in the field. And they see challenges at the 
local level. We can't allow everything in the FAA to be run at 
headquarters. It wouldn't be a good way to operate. But our 
members share those with us. All of us have expertise on our 
staffs, and the FAA has been very collaborative as we bring 
them evidence of the cases I cited in my testimony about a 
challenge you are seeing in the field. So I would say the FAA 
is working very well with us. We are looking for solutions, 
collectively, and trying to be constructive in those 
suggestions we offer.
    Mr. Bahrami. Mr. Chairman, a key word is collaboration, and 
I believe so far on these two initiatives FAA has been doing a 
great job of communicating and working with industry. With 
respect to questions on working with labor, as I mentioned, 
acceptance of these changes by the workforce is really 
important. If you don't have that, we are going to continue to 
struggle. So, whatever the form is for that collaboration, 
through whatever means, I think that's appropriate and 
necessary.
    Mr. LoBiondo. I have some additional questions but I am 
going to hold back and let some of the other Members go.
    Mr. Larsen?
    Mr. Larsen. Thank you, Mr. Chairman. Mr. Perrone, 
considering the future and the next decade or so, trying to get 
NextGen technologies out, new models and new airplanes being 
designed and built in the country, application of new 
technologies to existing general aviation platforms, have your 
folks done any sort of independent or in-house analysis of the 
number of inspectors that you need to (1) perhaps catch up to 
where we should be today, and (2) looking out in the future, 
the numbers that we would need to maintain an efficient 
certification and approval program?
    Mr. Perrone. We had the Academy of Sciences do a study a 
few years back, the flight standards folks, and they came up 
with a recommendation for a model that the FAA has used. They 
plugged in a number, somewhere between 300 and 900 short of 
inspectors.
    On the manufacturing side, however, there has not been any 
study. That is why I am saying the 139 manufacturing 
inspectors, it has been that way for a decade.
    From PASS's perspective, we just continue to see and hear 
the workload is increasing and increasing to oversee the 
designees and expand--the ODAs.
    We believe we are short staffed. The more the industry 
needs to move along with NextGen, and we see that as an 
important aspect--NextGen is going to be here. There are going 
to be a lot of new products. The FAA needs to have more of that 
oversight to make sure everything is done safely and 
efficiently.
    Mr. Larsen. Does your thinking include the need for FAA to 
have some folks come in, outside experts come in just for a 
brief period of time and leave again? You are not including 
that group of folks, are you?
    Mr. Perrone. No.
    Mr. Larsen. You still expect that to happen: outside folks 
to come in for a technology-specific thing and then go, but 
once we are in implementation and application, incorporating it 
in the platforms, that is where we are going to need additional 
folks?
    Mr. Perrone. Correct.
    Mr. Larsen. Mr. Bunce, you talked about the gold standard. 
Is the FAA in danger of losing its gold standard status for 
certification?
    Mr. Bunce. Yes, sir. Actually, we see an erosion of it that 
is happening all across the board. If you look internationally 
right now, EASA, the rough FAA equivalent over in Europe, it is 
very aggressive with teams out, being able to explain their 
certification processes.
    When they go and do that to other countries that are out 
there starting to stand up more robust aviation regulating 
authorities, we want to make sure that they have confidence 
that if something has an FAA Stamp of Certification on it, they 
say OK, we do not need to spend the time to have to come over 
to the U.S. or have manufacturers come over to their country to 
once again prove that this aircraft was built safely.
    We want them to be able to accept the FAA as the gold 
standard. Any of the authorities that we have a bilateral 
relationship with, that is really not a problem if we are 
dealing with Transport Canada, ANAC in Brazil, or EASA.
    When we have so many countries out there that are now 
increasingly getting into aviation, it becomes all the more 
important that we do not waste time having to re-prove that we 
built this aircraft safely, and they accept that FAA gold 
standard.
    What does that require? That requires the FAA certification 
offices along with the international offices to be aggressive, 
to be out there and discuss with these countries and the other 
regulators, as they stand up their structure, to say ``hey, you 
need to accept what we did because this is the best in the 
world.''
    Mr. Larsen. Mr. Hendricks outlined the problem that even 
here in the United States, you cannot get one region to accept 
the standard another region has set.
    Mr. Hendricks. I think it goes to the point, Congressman 
Larsen, about striking the proper balance. We do have different 
operating environments. It is different flying in the southeast 
U.S. compared to the Rocky Mountain region, and the oversight 
of those operators in those regions need to reflect that 
reality.
    We do not believe one size does fit all for the regulatory 
regime, for operating aircraft safely in the U.S., that we need 
to have thoughtful discussions, and that is the reason we 
mentioned the balance between headquarters' view of regulation 
and what the inspectors out there in the field who know their 
operating environment very well, how they view their operation.
    We just would like to see an increase in that dialogue so 
we are striking the proper balance.
    Mr. Larsen. Mr. Bahrami, I want to ask you to explain 
yourself, being from the northwest region. I have a different 
question for you. If you want to address that, that'd be great, 
given your experience in one of the regions.
    This issue of other certification processes. The FAA's 
August 2012 Aircraft Certification Review states that Europe 
and Canada have more mature systems approaches for regulatory 
oversight of design organizations and certification processes.
    Has AIA looked at how Europe's oversight of the 
certification process differs from those of the U.S., and can 
you grade it? Can you say it is more mature? Can you say it is 
better or worse?
    Mr. Bahrami. I would not be in a position to grade it 
better or worse, but I would tell you that from experience I 
have had in certification, 24 years, and 10 years of it in 
large transport, some of the ideas that we are thinking to 
start, things like certificated design, organization or 
approved organization, have been used in other countries.
    When it comes to the safety level, if you define measure of 
success as safety, we are competing with those and we are doing 
quite well.
    But if you talk about the transition, the pace of change 
and things of that nature, I think we are a bit slower, and 
therefore as Mr. Bunce mentioned, there is a risk of not being 
able to lead globally if we cannot find ways to do things more 
effectively.
    Mr. Larsen. Thanks. Thank you, Mr. Chairman.
    Mr. LoBiondo. Mr. Bucshon?
    Dr. Bucshon. Thank you, Mr. Chairman. A general comment and 
a couple of questions. I have heard a lot today at this 
hearing, which I do at a lot of other hearings in different 
committees about funding and how funding has an effect on 
Federal agencies.
    As it specifically relates to the FAA, in regards to where 
Congress is on funding, when you have the FAA is $4 billion 
over budget on NextGen, for example, and other issues like 
that, I think it is important--we have heard some of that 
today--not to convince but to show Members of Congress on both 
sides of the aisle where the taxpayers' money is being used 
efficiently or not. I think that is one of the rate-limiting 
steps on funding.
    The other comment I have on funding is we have a crisis in 
debt, but we are only addressing about 40 percent of the 
overall Federal spending budget. Congress will need to address 
the 60 percent of our mandatory spending programs or else we 
are going to continue to see a pinch on the discretionary side.
    With that said, Mr. Bunce, can you detail some of the 
effect on industry and your members from the current system in 
terms of delay and costs to your members? Do you have just a 
general comment on that and how that is affecting your members?
    Mr. Bunce. Absolutely, sir. In your State, two very mature 
engine manufacturers that operate in Indiana--if you look at 
some of the new technology that we have going forward, in fact, 
they were very instrumental in success with ICAO in Montreal in 
developing new CO2 standards, which all jet engines will be 
measured against as long as we will all be around.
    That new technology is complex. There are new materials 
being used, new metallurgy, new ceramics in those engines.
    If you try to get through that process and you are doing 
something new and novel, if we can go and dedicate those 
resources, we keep the burn rate down of being able to 
introduce that new product. Because if you look at the air 
frame manufacturers, they need to keep constantly putting a new 
air frame out. They have to have new engines.
    If one of those companies misses that development cycle 
because their program is drawn out because they cannot get the 
resources devoted to this new technology, they will miss being 
on that platform. That translates directly into money and 
directly into jobs and really into safety. These new engines 
will be safer, and the environment, because they will be more 
efficient.
    It is all intertwined in the efficiency of the system to 
get that product out the door.
    Dr. Bucshon. Do you think the inspection process and the 
approval process is causing some difficulty with keeping 
American competitiveness in place worldwide?
    You talked about the expansion of other countries, getting 
involved in the aviation industry and the regulatory climate in 
their area of the world, maybe the EU or other places.
    Do you think we are at the point where it might be 
inhibiting America's competitiveness worldwide in your 
industry?
    Mr. Bunce. Yes, sir. I do think it impacts us. When you 
have some of our manufacturers in the U.S. looking to actually 
do their certification program in another country, because they 
can actually have it being done faster or more efficiently, 
that concerns me, because those jobs will go there.
    At the same time, when you are looking at this program and 
the competitiveness itself, we are a global industry, and 
because 50 percent of the market is here in the U.S., we want 
people to be able to relocate.
    I am very proud of the fact that a lot of international 
manufacturers are building facilities here in the U.S. right 
now, whether you are talking North Carolina, Florida, or 
others, because they look at this market and say ``we want to 
be close to the market,'' and we want to encourage that by 
making it very efficient for them to be able to get through the 
process.
    Dr. Bucshon. Mr. Bahrami, do you have any comments about 
that with your members, on both the costs and the delays, 
perceived delays, and also the competitiveness aspect of it?
    Mr. Bahrami. Sir, any time you have a delay in a program, 
it is going to be costly, whether the source of that delay is 
the FAA or some technical challenges in the program.
    From our perspective, what we are trying to do is trying to 
have these collaborative relationships, real dialogue, 
communication, between the manufacturers and the regulators, to 
be able to plan things.
    Absolutely, if you have delays, it will cost quite a bit of 
money because you cannot stop everything and let people go and 
bring them back. Those are things that you just cannot do when 
you run a program that runs anywhere from 3 to 8 years.
    Dr. Bucshon. Thank you. I yield back, Mr. Chairman.
    Mr. LoBiondo. Mr. Davis?
    Mr. Davis. Thank you, Chairman LoBiondo. Thank you all for 
being here today. I should not use all my time. I just have a 
quick question and a comment for Director Baker. Thanks for 
your role, too.
    For President Bunce, I am sorry. Thank you for being here 
today and reminding us in your testimony how vital general 
aviation is to our economy.
    I was actually making notes while this hearing was going 
on. 1.2 million jobs generated by the general aviation 
industry. It is important that we do not forget that.
    There seems to be a commitment from the stakeholders, and 
as your testimony indicates, these changes can have their 
challenges. I want to note in your testimony, too, and 
highlight the fact that you have several cases of smaller 
aviation businesses faced with a loss of financing and possibly 
going out of business because of the inability of the FAA to 
act.
    I know we have gone over the FAA process, the certification 
process. I want you to speak to the importance of congressional 
oversight in this process as part of this team to achieve our 
safety goals.
    Mr. Bunce. Thank you, Congressman Davis. I want to put it 
into something mentioned on the first panel, the Small Airplane 
Revitalization Act. This really was to make certification 
something that works in the 21st century.
    We developed a bunch of rules back in the 1990s. We 
promulgated about 800 rules in a very short period of time and 
basically certified very simple aircraft to the highest common 
denominator of very complex jets.
    What did that do? That stifled innovation. That hurt a lot 
of companies out there, but it also made regulations become 
stale.
    So what you all have done is help the FAA push the process 
forward, because left to their own devices, I think the FAA 
supported everything we were doing, but when it got into the 
FAA legal channels and their decisionmaking, they all said no, 
this is too hard to do.
    What you have done with this legislation is to say no, you 
have to do this, and this is the right way. You get 
international regulators together to have a common set of 
standards, you have them meet periodically to keep the rules 
fresh and keep pace with modern technology, and what do you do? 
You stimulate innovation to that process, and you are saying, 
by the way, get it done by the end of 2015.
    I cannot thank this committee enough for the support you 
have given us there. We can do more, and the oversight that 
this committee and your colleagues in the other body also have, 
to be able to hold the FAA's feet to the fire and say let's 
make progress. This is important to us. It is important to 
safety and important to jobs.
    I just cannot overemphasize the importance of it.
    Mr. Davis. Thank you, President Bunce, and thank you, all. 
I yield back.
    Mr. LoBiondo. The gentleman from Tennessee, Mr. Duncan.
    Mr. Duncan of Tennessee. Thank you very much, Mr. Chairman. 
I can tell you that I appreciate your holding this hearing and 
calling attention to this problem. Apparently, there is really 
a serious problem at the FAA in the certification process.
    I read in the inspector general's report that there are 
now, across the country, 1,029 new certification applications 
pending, and it says of these awaiting certification, 138 
applicants have been delayed for more than 3 years, with one 
applicant waiting since August of 2006.
    I am sorry, I was at another committee hearing and did not 
get to hear all of your testimony. I read in Mr. Bunce's 
testimony for instance, that according to one aircraft 
manufacturer, a delay in a large certification project cost 
over $10 million a month, and it says this is just one project. 
You can imagine the compounding effect when carried across the 
whole industry over a number of months.
    Additionally, we have had several cases of smaller aviation 
businesses faced with the loss of financing and possibly going 
out of business because of the inability of the FAA to act.
    And then I read in Mr. Hendricks' testimony about one 
commercial air charter operator who had to spend $25,000 to 
secure FAA approval to move an aircraft on his air carrier 
certificate from one FAA region to another.
    It seems to me there is a real problem there. In fact, I 
wish, Mr. Bunce and Mr. Hendricks, you would get together and 
give us some specific suggestions as to how we can speed this 
entire certification process up.
    I know there is some variations, depending on what types of 
things are being requested to be certified, but there are 
surely ways to do this. I can tell you, it is not a money 
problem. The FAA is getting plenty of money. They should be 
handling these certifications much, much faster.
    In fact, I think if they started giving out some bonuses to 
move some things faster, they probably would see a lot of this 
backlog wiped out pretty quickly.
    It is just not a good report. When I read Mr. Hendricks 
said 89 percent of NATA members responded that their businesses 
have suffered due to inconsistent interpretation of 
regulations.
    I know the two of you are in a difficult position because 
you have to work with FAA so you cannot be too critical, and 
because there might be repercussions, but do either of you have 
anything you would like to add to what is in your testimony?
    Mr. Hendricks. Thank you, Congressman Duncan. I would like 
to offer a couple of views, if you do not mind.
    Mr. Duncan of Tennessee. Sure.
    Mr. Hendricks. You know very well with your experience, we 
are a highly regulated industry, unlike any other industry in 
the United States.
    Mr. Duncan of Tennessee. Yes, sir; I know.
    Mr. Hendricks. When entrepreneurs make the decision to 
start a small business out there, one of the pieces of the 
framework that they use to develop their business model is how 
we are regulated.
    During the recent Government shutdown, we saw what happens 
when the regulator nearly disappears. We had commerce come to a 
grinding halt in many cases. Pilot qualifications expired, 
instructors that could help with those pilot qualifications, 
their qualifications expired. We had aircraft that were unable 
to be transferred between businesses because the FAA aircraft 
registry office was closed in the shutdown.
    I do not want to focus on the shutdown, but it shows you 
how dependent we are on our regulator, and why the oversight of 
the Congress and this subcommittee is so critically important 
to our members.
    One of the things we subscribe to very strongly, and Dr. 
Dillingham referred to this in his remarks as did Director 
Dorenda Baker, is that we must take a systems safety approach 
through safety management systems, very highly structured, 
risk-based approach, complete buy-in by the regulator, by 
labor, by management, and moving forward on how we evolve the 
system more efficiently than we have done.
    We have seen success with this in the industry and we would 
like to see this process and this culture change accelerated 
within the FAA as well.
    Mr. Duncan of Tennessee. I did not want to get into this 
but I will say on our side, we voted four times to open the 
entire Government back up with just a simple delay of Obamacare 
for a year, but we do not need to get into all that.
    Mr. Bunce?
    Mr. Bunce. Congressman, I would just add that the workforce 
that Mr. Perrone represents, they are great people, they are 
sharp people, they want to learn, they want to be with us on 
this journey, but I think they are trapped by the bureaucracy 
in a lot of ways.
    We are in a very risk-averse setting where they are very 
constrained by the guidance that is coming down to them. It is 
very important that they get clear guidance of what they are 
allowed to do and what they cannot do, but also that they can 
take confidence in what some of the other FAA inspectors 
already approve.
    Let me give you an example. Several years ago we went to 
this thing called RVSM, reverse vertical separation minimums, 
so it allows us up at the high-altitude airspace to fly closer 
together vertically.
    When we give an aircraft and sell it to a customer, we have 
to show it can do this, that the avionics is very tight, the 
tolerances are very specific, to be able to fly there. But then 
we had a process where that was the certification side, but 
then we had to reprove the aircraft could do that on the flight 
standard side.
    That side was not trusting what the other side did. Then 
within the flight standards--we just had an incident a few 
months ago where on a telecon, they were discussing RVSM and 
the capability to certify aircraft to fly there, and all of a 
sudden, an FAA inspector chimed in over the phone and said 
``how can I trust what the FAA inspector did in another region, 
how can I trust that he did that right?'' All of a sudden, 
there was silence in the room, and people got it then, right 
away, that we have inspectors, because of the guidance, are not 
able to trust what another FAA inspector has done.
    That is just debilitating for industry. What happened is 
FAA leadership listened to this, there was industry in the 
room, there was a lot of discussion, and now there is going to 
be some very clear guidance put out dealing with RVSM and what 
should be expected.
    That is what we are asking more of and that is why this 
oversight is so important, that we have metrics available and 
that we make sure the FAA is putting implementation guidance to 
leverage these resources properly and use delegation.
    Mr. Duncan of Tennessee. My time has gone way over. Thank 
you very much, Mr. Chairman.
    Mr. LoBiondo. Mr. Meadows?
    Mr. Meadows. Thank you, Mr. Chairman. Thank each of you for 
coming today. I want to focus a little bit on the bureaucracy 
and what was just touched on. I am troubled at times when I 
hear about the need for regulators on a daily basis. That is 
counterproductive to a vibrant economy.
    At the same time, we obviously need a safe environment, and 
the airline and general aviation industry has been extremely 
safe. It is highly publicized when there is an accident, but 
when you look at it compared to a number of other 
transportation modes, we have a great track record.
    The--administrator for the FAA, I have been very direct in 
some of my questioning, but yet at the same time I believe him 
to be a person who wants to do the very best for the industry.
    And so Mr. Hendricks, I would ask you, specifically what 
would be the top three things that we could do to get rid of 
some of the bureaucracy, to speed up the process, to make sure 
we have a competitive aviation business? Because if it is not 
us, it is going to be somebody.
    I come from North Carolina. We love aviation in North 
Carolina, but what would be the top three things that you would 
recommend?
    Mr. Hendricks. Thank you, Congressman Meadows. I actually 
would give you the top choice rather than the top three, and it 
would be let's accelerate the movement towards safety 
management systems at the FAA and drive cultural change.
    The industry is already rapidly moving in this direction, 
the airline industry is very mature in their safety management 
system processes.
    Former Director of Flight Standards, John Allen, spoke very 
frequently about the role of the regulator changing in the 
future because of the cultural change that is taking place at 
the regulated parties, and it needs to take place at the FAA. 
The FAA knows this. The Administrator will acknowledge this. It 
is a proven system. It is very thorough. It requires everyone 
to take ownership of the identified risks in an operation or a 
certification process, and we believe this is the way of the 
future for the FAA and will allow them to be much more agile in 
their oversight responsibilities.
    Mr. Meadows. All right. I would ask you for the record and 
not to respond right now, is to give us three areas that we can 
get rid of. Because what we do is we add layer upon layer upon 
layer. Most of us in this room have flown, and we still get--
and this may be a poor example, but every time we get on a 
commercial airline, they are still showing us how to put our 
safety belts on. You want to go at what point is there a market 
saturation on that training.
    I would assume in this particular area, you can identify 
three areas that we just added layers, so I would ask you to 
respond to the committee on that, if you would.
    Mr. Hendricks. I would be happy to do that. Thank you.
    [The information follows:]

        Three actions the Federal Aviation Administration (FAA) 
        can take to improve safety and help our industry 
        compete in the marketplace by streamlining the FAA 
        processes:

        1. LSMS--The FAA should leverage the Safety Management 
        Systems being implemented throughout the industry. The 
        FAA could reduce direct involvement and could rely on 
        an approved SMS regime to identify and mitigate risks 
        so that overall safety levels are improved with more 
        efficient FAA oversight activities. Reliance on SMS 
        principles should permit expanded use of delegation 
        authority without requiring additional FAA personnel 
        for oversight.

        2. LThe FAA should develop and publish directions to 
        the inspector workforce through handbook guidance that 
        specifically requires approvals from one geographic 
        region to be approved in every region. This procedure 
        should require that any approval deemed not 
        ``transportable'' be reviewed at a higher level to 
        determine the root cause. Therefore, this procedure 
        could dramatically improve standardization by 
        automatically elevating differences in policy 
        interpretation so that operators would not be reluctant 
        to complain or fear retribution.

        3. LThe FAA should continue its effort to provide a 
        single platform for all regulations, guidance materials 
        and legal interpretations for both Aircraft 
        Certification and Flight Standards. A critical aspect 
        of this effort is that much of the guidance is outdated 
        and should be modernized so that it will be clearer to 
        both FAA inspectors and to the operators and 
        manufacturers. A consolidated library of standardized, 
        modern and clear guidance will support more consistent 
        regulatory interpretation and is key to streamlining 
        FAA processes. This project will only be enabled if 
        Congress protects necessary funding and provides 
        adequate staffing.

    Mr. Meadows. Mr. Bunce, you mentioned in your testimony 
about the certification process using engineering experts, that 
they are the same with the traditional, I guess, certification, 
and that was problematic.
    Can you expand on that a little bit, the difference, why 
using those same engineers would be a problem?
    Mr. Bunce. If you take an aircraft certification office, 
Congressman, that has been working traditionally in the old 
model, and all of a sudden you say convert to this new safety 
system management/safety oversight, there is resistance to 
change. That is just human nature. People do not want to 
change.
    What does an engineer want to do? God love them, they want 
to be down there designing, working on the intricacies. It is 
very tough to be able to say no, your job now is to manage the 
whole safety processes network and let this company that has 
had a very mature record of developing aircraft, or engines, 
avionics, whatever it is, go and do the day-to-day sharp pencil 
engineering, and you make sure their processes are safe. That 
is cultural.
    Mr. Meadows. So they have more of a broader brush 
overarching engineering responsibility where specifically you 
allow the stakeholders and so forth to do the processes that go 
into that? Is that what you are saying?
    Mr. Bunce. Absolutely. Sometimes that may be appointing 
different people to go do that expertise. This may be the 
sharpest engineer in one specific area. You may want to move 
that engineer and say go work on this project for this company 
that it is brand new for, and put another person into that 
safety oversight.
    In your great State, Honda, this is their first foray into 
jets, this is a complex program. We want to make sure they have 
all the resources they need to be able to get that product to 
market quickly, because they are spending a lot of money. I am 
sure you have been to that facility. It is tremendous.
    They are going to employ a lot of people. The sooner they 
start delivering jets, the sooner they start ramping up that 
employment.
    We want them to have the resources, but a mature company 
that has been doing it for a long time, let their processes be 
overseen by a safety management system.
    Mr. Meadows. I appreciate the Chair's indulgence and I 
yield back, Mr. Chairman. Thank you.
    Mr. LoBiondo. Thank you, Mr. Meadows. I have some 
additional questions that I am going to submit for the record. 
Unfortunately, we are up against a little bit of a time 
constraint, but I want to thank the second panel, encourage you 
to keep thinking ideas to bring to us. Rick and I want to stay 
very much engaged with trying to see how we can further get 
this on a positive track.
    The committee stands adjourned.
    [Whereupon, at 12:01 p.m., the subcommittee was adjourned.]

</pre></body></html>
